-8397
No:

SUPREME COURT OF THE UNITED STATES
^Pre™e'cHTTus'
PILED

JUN - 9 202]
Mr. Louis A Banks, parent of D.B a minor.

OFFICE of Tuc

clerk

Petitioners et, al
vs.
District of Columbia et, al
Respondent(s)

On Petition for a Writ of Certiorari to the United States Court of Appeals
for the District of Columbia Circuit from En banc
PETITION FOR WRIT OF CERTIORARI

Louis A Banks, parent of D. B a minor,
3227 Fort Lincoln, Dr NE
Washington D.C 20018
Pro Se, Friend of the Court
E-mail ismgroup@hotmail.com

RECEIVED
JUN 2 2 2021

1

I QUESTION(S) PRESENTED
1. Whether Teacher, officers, law enforcement violate the rule announced in Edwards v.
Arizona by interviewing, interrogated, unreasonable searches False Imprisonment a 6-year old minor
(heterosexuality Straight), gender black male who has previously invoked the Fifth Amendment right to
his father and counsel, under what circumstances does the custodial detainee "initiate" fiirther
communications with law enforcement and thereby purge the taint from the Edwards violation, and using
his or her official title position while engaged in political activity Hatch Act. Under Title IX the
Education Amendments of 1972 prohibits discrimination based on sex in education, discharge though an
adversary proceeding commenced by filing a grievances/ complaint mailing by the clerk of the court,
serving it summons on an appropriate agent of respondents. When does such procedure meet the
rigorous demands of due process and entitle the resalting order to respect under principles of res judicata
and thereby purge taint from the Petition Clause First Amendment,?

2. Whether claims for declaration, injunctive monetary, punitive damages relief can be certified
under Federal Rule of Civil Procedure Rule 23(c)(3) the binding effect of a class judgment on members
under which by its terms to injunctive or corresponding declaratory relief Under Rule 60(b) as a
remedial provision is to be “liberally construed for the purpose of doing substantial justice,” Patton v.
Sec’y of Health & Human Servs., 25 F.3d 1021, 1030 (Fed. Cir. 1994) Timing of Rule 60(b) Motions.
When does a State Judge, Magistrate Judge have authority to preside over a case when He/She
has a conflict of interest? Does absolute immunity apply when a judge, public officer, lawyers, law
enforcement has acted criminally under color of law and without jurisdiction, as well as actions taken in
an administrative capacity to influence cases? Can a judge, public officer, lawyers, Act of Congress have
Immunity for their non - judicial activities who knowingly violate civil right act 1871?

2

11. Table of Contents
I. Question Presented

2

II. Table of Contents

3

III. Table of Authorities

.4

IV. List of Parties.

5,6

V. Related Cases

7

VI. Petition for Writ Of Certiorari

8

VII. Opinions Below

8

VIII. Jurisdiction

.8
......9

IX. Constitutional Provisions Involved

10

X. Statement of the Case
1.Alleges New Facts, With Worsening Of The Earlier Conditions

10

2.Judicial review

13
14

XJ. REASONS FOR GRANTING THE WRIT

A. To avoid erroneous deprivations of the right Procedural Due Process the right to present
evidence, abridged the fundamental right of law Substantive Due Process to counsel, right to his
father this Court should clarify the "initiation" standard under Title IX the Education
Amendments of 1972, Franklin v Gwinnett County Pub Sells (1992), and Edwards that applies
when law enforcement contacts a 6-year-old minor who has previously invoked their right to
counsel or father. The conflict between state and federal laws are at direct odds, many honest,
Black Males, Kids, American People, are being caught in this legal web that laid to bias,
prejudice, and harassment to retaliation by State, Local federal employees, because of race, sex,
gender, and socio economic.
B.

15

STRICT SCRUTINY ANALYSIS

15

XII. CONCLUSION
XIII.APPENDIX...........................................................................................................................
United States Court of Appeals for the District of Columbia Circuit En banc enter judgment
March 31,2021.

A,

APPENDIX...................................................................................................................................... B
Louis A Banks, parent DB minor v United State, No. l:19-cv-00334 United State Court of Federal
Claims Default judgment and declaration, Nature of Suite Code 134 and Other Action preceded by
the filing of a protest the GAO.
3

111. Table of Authorities
Case
2,12,15

Edwards v. Arizona.
Rule 60(b)

2, 14

Patton v. Sec’y of Health & Human Servs.,

2,15
.2,11

Hatch Act

8

State Actor.
Bivens Claims v Unknown

10

42 U.S.C Section 1983 Civil action for deprivation of rights

10

Lawlor v National Screen Service Corp...............................

10

Media Tech. Licensing LLC v. Upper Deck Co...................

11

Executive Order 13107 Civil Rights Act with Liberties.......

11

Under Color of State Law"

11
11
2,11,15

United States v. Classic, 313 U.S. 299 (1941)
Franklin v Gwinnett County Pub Schs (1992.
Cannon v. University of Chicago

11

Bell v. Hood, 327 U.S. 678, 684 ; Davis v. Passman,

11

Brown v Board of Education

12
12, 13, 15

Miranda v. Arizona

12

Safford Unified School District v Redding

12,13

New Jersey v T.L.O (1985)
Marbury v Madison

13

Section 242 of Title 18

14

Statutes
8

28 U.S.C. § 1257
Constitutional Provisions Involved
Title IX the Education Amendments of 1972............
United States Constitution First Amendment 1.........
United States Constitution, Amendment IV..............
United States Constitution, Amendment V..............
United States Constitution, Amendment XIV..........
United States Constitution, Procedural Due Process..
United States Constitution, Substantive Due Process.

.2, 11

1,8, 9, 10
8,9
8,9
8,9
8,9, 10
•8,9,10

4

I

IV LIST OF PARTIES
[ ] All parries appear in the caption of the case on the cover page.
[X] All parries do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgment is the subject of the petition is as follow:
Judge Jennifer A Di DToro, LGBTQ
Mr. Karl A Racin Attorney General LGBTQ
Mayor Muriel Bowser LGBTQ
Guy Tuner Paul Charter School LGBTQ
Donald Jenkins DCPS - LGBTQ
Willis Jefferson DCPS - LGBTQ
Janina Green DCPS Washington DC 2003
DCPS Kevin Walker LGBTQ
Noele McConico DCPS
Author Fields DCPS - LGBTQ Author Fields
Lewis Ferebee DCPS - LGBTQ
Jasmine Brann DCPS
Pater Clerk Risk Management LGBTQ
Donte Harris LGBTQ
Mayor Muriel Bowser One Judiciary Square 441 4th Street NW Suite 625S Washington 1X2 20001
Two River Public Charter School Young
Guy Tuner 820 26th NE, Washington 20002
Ms. Jessica Wodatch 820 26th NE 20002
Ms. Meggie Bello 820 26th NE Washington 20002
David Nitkin 820 26,h NW Washington 20002
DC FEMS2000 14th Street NW, 5th Floor, Washington, DC 20009
Councilmember Kenyan McDuffie 1350 Pennsylvania Ave NW Suite 506 Washington DC 20004
Councilmember Chairman Phil Mendelson 1350 Pennsylvania Ave NW Suite 504 Washington DC
Councilmember Anita Bonds 1350 Pennsylvania Ave NW Suite 404 Washington DC 20004
Councilmember David Grosso 1350 Pennsylvania Ave NW Suite 402 Washington DC 20004
Councilmember Elissa Silverman 1350 Pennsylvania Ave NW Suite 408 Washington DC 20004
Councilmember Robert C White, Jr 1350 Pennsylvania Ave NW Suite 107 Washington DC 20004
Councilmember Brianne K Nadeau 1350 Pennsylvania Ave NW Suite 102 Washington DC 20004
Councilmember Jack Evans 1350 Pennsylvania Ave NW Suite 106 Washington DC 20004
Councilmember Mary M Cheh 1350 Pennsylvania Ave NW Suite 108 Washington DC 20004
Councilmember Brandon T Todd 1350 Pennsylvania Ave NW Suite 105 Washington DC 20004
Councilmember Charles Allen 1350 Pennsylvania Ave NW Suite 110 Washington DC 20004
Councilmember Vincent C Gray 1350 Pennsylvania Ave NW Suite 406 Washington DC 20004
Councilmember Trayon White Sr. 1350 Pennsylvania Ave NW Suite 406 Washington DC 20004
John Doe, Jan Doe Federal Official the true name of person is unknown is being intentionally concealed
Lekisha C Kellark Davis Metropolitan Police Department One Judiciary Square 441 4t Street NW Suite
625S
Chief Peter Newsham Metropolitan Police Department One Judiciary Square 441 4t Street NW Suite
625S
Mr. Karl A Racin Attorney General One Judiciary Square 441 4,h Street NW Suite 625S Washington DC
20001

5

Former Director, Federal Bureau of Investigation 935 Pennsylvania Avenue, NW Washington, D.C.
20535-0001
Federal Bureau of Investigation 935 Pennsylvania Avenue, NW Washington, D.C. 20535-0001
Mr. Anthony Lawrence Government of the Columbia Office of Police Complaint 1400 I Street NW
Washington
Attorney General of United States U.S Department Justice 950 Pennsylvania Avenue, NW Wash DC
20530-0001
Office of Congressional Ethics U.S House of Representative 425 3rd Street, S.W Suite 1110 Wash DC
20024
DC’s Hanseul Kang State Superintendent
Congress Woman Eleanor Holmes Norton 90 K Street NW Suite 100 Washington DC 2001
Child Family Servicers Brenda Donald 200 I Street, SE Washington DC 20003
Director Monica Palacio Office of Human Rights One Judiciary 441 4th Street NW Suite 625S
Washington DC
Superior Court Judge Neal E Kraviz, Superior Court Judge Michael Rakin
Superior Court Judge, United State Judge William Nooter, Superior Court Judge, United State Judge
Jennifer A Di DToro, Judge Anna Blackbume-Rigsby
Mr. Matthew Dunn
Covington & Burling LLP
850 Tenth Street NW
Washington DC 20001-4956
Counsel for Respondent(s)
Inspired Teaching
Dr. Ms. Misty Freeman
Ms. Zoe Duskin,
and Deborah Williams

Solicitor General of the United States, Room 5614
Department of Justice, 950 Pennsylvania Ave N. W
. Washington DC 20530-0001

District of Columbia
Mayo Muriel Bowers
Attorney General Karl Racine
441 4th Street NW 625 Floor South
Washington DC 20001

Brian Stolarz, LeClaii
Catholic Charities CHAMPS
Susan Proctor,
Chanel Sotelo,
Kristin Mathews,
Huy Bui, Donte Harris

6

V. Related Case
Banks et al v United State, No. 1:17-cv-00808-LKG United State Court of Federal Claims Judgment
entered Nov. 6, 2017
Banks et al; v United State, 2018-1254 United State Court of Appeal Federal Circuit Judgment entered
June 12, 2018
Banks et al v United State, No. 1:19-cv-00334 United State Court of Federal Claims Default judgment
and declaration entered in June 20,2019
Banks et al v United State, No 2020-1039 United State Court of Appeal Federal Circuit judgment entered
April 13,2020 Rule 60(b)
Banks, et al v District of Columbia et al, 2015 CA 01005 IB Superior Court Judgment entered 12/30/2015
Banks, et al v District of Columbia et al, 2017 CA 006401, Superior Court Judgment entered 09/192017
Banks, et al v Muriel Bowers et al 2018 CA 005689B Superior Court Judgment entered 08/14/2018
Banks, et al v United State of America, 2018, CA 006084, Superior Court Judgment entered 08/24/2018
Banks, et al v District of Columbia et al, 16-cv-0478 District of Columbia Court of Appeal Judgment
entered 09/06/2016
Banks et al v United State of America et al, 18-cv-1046, District of Columbia Court of Appeal Judgment
entered 08/16/2019
Banks et al v District of Columbia et al, 18-cv-0212 District of Columbia Court of Appeal Judgment
entered 10/09/2019
Banks et al v Inspired Teaching Public School 16-0038 (RBW) U. S District Court For District The
District of Columbia. Judgment entered March 17,2017
Banks, et al v District of Columbia etal, 20-1598 (UNA), U. S District Court For District The District of
Columbia. Judgment entered June 29,2020
Banks et al v Muriel Bower, et al 18-2146 (TNM) U. S District Court For District The District of
Columbia. Judgment entered May 17, 2019
Banks et al v Muriel Bower, et al 18-1916 (TNM) U. S District Court For District The District of
Columbia. Judgment entered September 13,2018
Banks et al v Kanyan McDuffie, et al 18-452 (UNA) U. S District Court For District The District of
Columbia. Judgment entered May 17,2019
Banks et al v Kanyan McDuffie, et al 18-452 (UNA) U. S District Court For District The District of
Columbia. Judgment entered August 20,2018
Banks et al v District of Columbia et, al Case 19.5063 U. S District Court of Appeals For The District of
Columbia Circuit Judgment entered
Office of Civil Rights and Civil Liberties U.S Department of Homeland Security Judgment Sep 23,2020
U.S Department of Justice Civil Right Division Education Opportunities, Section -PHB Judgment
entered Nov 07, 2018
United Stated Department of Education Officer For Civil Rights Judgment entered May 10, 2018
District of Columbia Commission on Judicial Disabilities and Tenure Judgment entered August,
September October 9, 2018
Office of Disciplinary Counsel August 14, 2018 Re Palacio/Banks 2018-U351 Rankin/Banks 2018U352, Hawkins/Banks 2018-U353, Cheh/Banks 2018-U354, McDuffie/Banks 2018-U355, Racin/Banks
2018-U356
7

VI. Petition for Writ Of Certiorari
1 am writing on behalf of me Louis A Banks parent of D.B minor, a student in Washington DC
Public School GPA 3.8 a person that love sports reading, math, science and playing with his friends. In
addition, I am loving father who nature, provided, protect his son, also holds a B.S Business
Administration Concentration Marketing and Master of Science in Administration Concentration
Information Resource Management respectfully petitions this court for a writ of certiorari to review the
En banc judgment of the United States Court of Appeals for the District of Columbia Circuit.
VII. Opinions Below
The decision by the United States Court of Appeals for the District of Columbia Circuit denying Mr.
Banks, parent of D.B a minor enbac direct appeal before Srinvasan, Chief Judge, and Henderson, Rogers,
Tatel, Millett, Pillard, Wilkins, Katsas, Rao, and Walker, Circuit Judges and Sentelle, Senior Circuit
Judge, Upon consideration of the petition for rehearing en banc, and the absence of a request by any
member of the court for a vote it is.
VIII. Jurisdiction
Mr. Banks Petition, parent of D. B minor petition for hearing to the District of Columbia Court of
Appeals for the District of Columbia, was denied on March 31, 2021. Mr. Banks invokes this Court's
jurisdiction under 28 U.S.C. § 1257, having timely filed this petition for a writ of certiorari within ninety
days of the District of Columbia of Appeals judgment. For the purposes of this section, the term '‘Highest
court of a State” includes the District of Columbia Court of Appeals. In addition, District of Columbia is a
Corporation governing the entire federal territory (Organic Act), State Actor are persons who is acting on
behalf of a governmental body and is therefore subject to limitations imposed on government by the
United States Constitution, including the First, Fifth, and Fourteenth Amendments, which prohibit the
federal and state governments from violating certain rights and freedoms. They conspire with District of
Columbia, government officials to deprive Petition Louis A Banks, parent D.B minor fundamental civil
rights.

8

IX. Constitutional Provisions Involved
United States Constitution, Amendment
The First Amendment to the United States Constitution prevents the government from making laws
which regulate an establishment of religion, or that would prohibit the free exercise of religion, or abridge
the freedom of speech, the freedom of the press, the freedom of assembly, or the right to petition the
government for redress of grievances, as one of the ten amendments that constitute the Bill of Rights.
United States Constitution, Amendment IV:
The Fourth Amendment to the United States Constitution is part of the Bill of Rights. It prohibits
unreasonable searches and seizures. In addition, it sets requirements for issuing warrants: warrants must
be issued by a judge or magistrate, justified by probable cause, supported by oath or affirmation, and must
particularly describe the place to be searched and the persons or tilings to be seized.
United States Constitution, Amendment V:
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces, or in the
Militia, when in actual service in time of War or public danger; nor shall any person be subject for the
same offense to be put twice in jeopardy of life or limb; nor shall be compelled in any criminal case to be
a witness against himself nor be deprived of life, liberty, or property, without due process of law; nor
shall private property be taken for public use, without just compensation.
United States Constitution, Amendment XIV:
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.
United States Constitution, Procedural Due Process
Procedural due process refers to the constitutional requirement that when the federal government
acts in such a way that denies a citizen of a life, liberty, or property interest, the person must be
given notice, the opportunity to be heard, and a decision by a neutral decisionmaker.
United States Constitution, Substantive Due Process
Substantive due process is the notion that due process.not only protects certain legal procedures,
but also protects certain rights unrelated to procedure.

9

X. Statement of the Case
This case is a Bivens Claims and 42 U.S.C Section 1983 suit with omission that was filed against
City of District of Columbia et al in the United States District Court for the District of Columbia. This
case consists of race, sex, gender "Separate educational facilities unfair treatment discipline disparities
against black males’ students’ boys, black males’ parents’ father/dad. These disparities are widespread
regardless of the type of disciplinary action, level of school poverty, and type public attended. In
additions it shows harassment, institutional racism by social, political institutions, such as public schools,
courts, health care, housing, education, among others.
It the Petitioners Louis A Banks, parent of D.B minor First Amendment right “to petition the
Government for a redress of grievances” includes a right of court access, but narrowly define this right as
the right to file a lawsuit The most significant threats to court access today occur after the filing stage,
when courts deny the Petitioners Louis A Bank, parent of D.B minor limit remedies to legally injured
Petitioners Louis A Banks, parent of D.B minor — by enforcing a mandatory arbitration provision that
violated the Petitioners Louis A Banks, parent of D.B minor Procedural due process and Substantive Due
Process refers to the constitutional requirement.
Suite 2-17 Alleges New Facte, With Worsening Of The Earlier Conditions.
Petitioners Louis A Banks, parent of D. B minor Case # 2 though Case # 17 current grievances
complaints raises new facts that do not arise out of the same transaction or occurrence res judicata does
not bar a suit, even if it involves the same course of wrongful conduct as alleged earlier, Lawlor v
National Screen Service Corp. Here, district court mistakenly view Petitioners Louis A Banks Parent of
a DB minor earlier dismissal for lack of standing which the and district court was not on the merits as
analogous to dismissal of Case # 1, Louis A Banks Parent of DB a minor v Inspired Teaching School,
Case 2, Case 3, Case ,4, Petitioners Louis A Banks et al did appeal there cases in other words, has case #
1 the Petitioners could have chosen not appeal and the court could have allowed case #2, though Case #
17 to proceed, consistent with rule that dismissals for lack of standing are not dismissals on the merits
10

regardless of any appeal. See Media Tech. Licensing LLC v. Upper Deck Co, 334, F.3d 1366, 1370(Fed.
Cir. 2003) (reversing application of res judicata where first suite was dismissed for lack of standing and
not appealed)
Res judicata is a slavery law that Enacted Black Laws that restricted Blacks, movement the right
to sue as well laid to violation of Petitioners Louis A Banks et al Civil Rights, Human Rights under
Executive Older 13107 Civil Rights Act with Liberties, and "Under Color of State Law" means to act
beyond the bounds of lawful authority, but in such a manner that the unlawful acts were done while the
official was purporting or pretending to act in the performance of his official duties. In other words, there
unlawful acts consist of an abuse with misuse of power which is possessed by the official because he/she
is an official. United States v. Classic, 313 U.S. 299 (1941).
Congress increased the scope of the Hatch Act in 1940 by extending its restrictions to employees
of state and local governments that receive federal funds (Act of July 19, 1940, ch. 640, 54 Stat. 767
Over 21 year ago, this Court held Franklin v Gwinnett County Pub Schs (1992) held that Title
IX of the Education Amendments of 1972 prohibits discrimination based on sex in education programs
activities that receive federal financial assistance.

This case presents the question ofwhether the “initiation” standard of the Title IX is enforceable
through an implied right of action. Cannon v. University of Chicago, 441 U.S. 677 . P. 65.
The longstanding general rule is that absent clear direction to the contrary by Congress, the
federal courts have the power to award any appropriate relief in a cognizable cause of action brought
pursuant to a federal statute. See, e.g., Bell v. Hood, 327 U.S. 678,684 ; Davis v. Passman, 442 U.S. 228,
246 -247. Pp. 65-68.

11

Title IV of the Civil Rights Act of 1964 prohibits discrimination based on race, color, national,
origin, sex, in public schools this was unequal", and therefore violate the Equal Protection Clause.
“Brown v Board of Education”
Over 12 years ago, this Court held in Safford Unified School District v Redding, 557 U.S. 364,
held that a strip search of a middle school student by school - teacher, officials violated die Fourth
Amendment to the U.S. Constitution, which prohibits unreasonable searches and seizures.
This case presents the question of whether the "initiation" standard of the New Jersey v T.L.O
(1985) rule is satisfied when Teachers violate Fourth Amendment to the U.S Constitution the Court found
that the search failed to meet the reasonable suspicion " standard for searches of students in a school.
Over 60 years ago, this Court held in Miranda v. Arizona that law enforcement may not
interrogate a custodial detainee-who has invoked his right to counsel, unless and until counsel is made
available to him. Miranda holds that the right to counsel is a significant event, and once exercised, "the
interrogation must cease until an attorney is present." 384 U.S. 474.
In Edwards v. Arizona, this Court held that when a custodial detainee has invoked his right to
counsel, all subsequent statements obtained in violation of Miranda are presumed involuntary and
inadmissible unless the (1) the accused himself initiated fiirther communication, exchanges, or
conversations and (2) knowingly and intelligently waived the right he had invoked. 451 U.S. 477,486, n.
9(1981).
This case presents the question of whether the "initiation" standard of the Edwards rule is
satisfied when officers violate Miranda by contacting a custodial suspect who has unambiguously invoked
his right to counsel without first making counsel available to him, and the kid responds by asking to speak
with his father they contact him.

12

XI. REASONS FOR GRANTING THE WRIT
To avoid erroneous deprivations of die Bill of Rights, Procedural Due Process die right to present
evidence, abridged the fundamental right of law Substantive Due Process to counsel, right to his father
this Court should clarify the "initiation" standard under Title IX the Education Amendments of 1972,
Franklin v Gwinnett County Pub Schs (1992), and Edwards that applies when law enforcement contacts a
6-year-old minor who has previously invoked their right to counsel and father. The conflict between
state and federal laws are at direct odds, and many honest, American People, Kids are being caught in
this legal web that laid to bias, prejudice harassment, because of race, sex, gender and socio economic.
In Miranda v. Arizona, 384 U.S. 436 (1966), this Court adopted a set of prophylactic measures to
protect a suspect’s Fifth Amendment right to counsel during custodial interrogation. Id., at 467. In order
to dissipate the "compelling pressures which work to undermine the individual's will to resist and to
compel him to speak where he would not otherwise do so freely,” 384 U.S. at 467, the police must advise
a suspect of his right to counsel and, "[i]f the individual states that he wants an attorney, die interrogation
must cease until an attorney is present." 384 U.S. at 474.
Over 12 years ago, this Court held in Safford Unified School District v Redding, 557 U.S. 364,
held that a strip search of a middle school student by school - teacher, officials violated the Fourth
Amendment to the U.S. Constitution, which prohibits unreasonable searches and seizures.
Over 21 year ago, this Court held Franklin v Gwinnett County Pub Schs (1992) held that Title
IX of the Education Amendments of 1972 prohibits discrimination based on sex in education programs
activities that receive federal financial assistance.
Title IV of the Civil Rights Act of 1964 prohibits discrimination based on race, color, national,
origin, sex, in public schools this was unequal", and therefore violate the Equal Protection Clause.
“Brown v Board of Education”
Section 242 of Title 18 makes it a crime for a person acting under color of any law to willfully
deprive a person of a right or privilege protected by the Constitution or laws of the United States.

14

STRICT SCRUTINY ANALYSIS
1. The Statue deprive (s) Louis A Banks, Parent DB a minor child of our fundamental right with
interfere with free exercise thereof through enactment of a law. (YES)
2. The Statue intended to achieve a compelling government purpose passed a law involving a
suspect classification, that including race Black with national origin also poverty, religion and
alien with citizenship status (YES)
3. There less restrictive means for achieving the purpose. (There is a more narrowly drawn means
possible.) (NO)
4. PASSES STR1CY SRUITY DUE PROCESSS ANALYSES

This case presents this Court with an opportunity to clarify the Franklin v. Gwinnett County
Public Schools, case in which the U.S. Supreme Court on February 26,1992, ruled (9-0) that students
who are subjected to sexual harassment in public schools may sue for monetary damages under Title IX
of the Federal Education Amendments of 1972. Edwards’ "initiation" standard in the face of law
enforcement actions that violate the Edwards rule. Absent intervention by this Court, the United States
Court of Appeals for the District of Columbia Circuit from En banc' published decision will work to
undermine the carefully-crafted procedural safeguards that this Court has spent the past 70 years
developing.

XL Conclusion
For the foregoing reasons, Louis A Banks p respectfully requests that this Court issue a writ of certiorari
to review the judgment of the United States Court of Appeals for the District of Columbia.

i\s_A Banks et al Pro Se 28. U.S.C 1746 If executed within the
fniftjd States, its territories, possession or commonwealth, I declare (or certify, verify, or state) under
Mialty of perjury that the foregoing is true and correct.

15

